GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL



                     Recovery Act Report:
      Edith Green/Wendell Wyatt Modernization Project
    Review of PBS’s Major Construction and Modernization
        Projects Funded by the American Recovery and
                   Reinvestment Act of 2009
              Audit Number A090172/P/R/R11005

                      January 21, 2011
accordance with Federal Acquisition Regulation 52.217-5 2, the proposed GMP must be evaluated along
with the pricing for the design services.

When PBS awarded the contract on December 11, 2009, the Design Phase Services were awarded for a
firm fixed price of $1,117,242, but a GMP for the construction option was not established. In its
proposal, the winning contractor submitted a GMP of $108,217,338; however, according to the Source
Selection Evaluation Board report, PBS evaluated less than 10 percent of the construction phase costs. 3
The contract award document specified that only the Design Phase Services had been accepted and the
line item for GMP had been scratched out. Since PBS did not establish a GMP at contract award,
Construction Phase Services represent an unpriced option and effectively were negotiated as a sole source
procurement. 4

On March 29, 2010, PBS set the GMP at $122,034,411, but did not exercise the construction option.
During a meeting held on July 13, 2010, regarding the issues identified in this report, we notified PBS
that the construction option was unpriced and that if it were exercised, it would violate competition
requirements.

However, on July 22, 2010, PBS exercised the construction option and increased the GMP to
$123,500,000. The General Services Acquisition Manual 536.270 specifies that, before an unpriced
option can be exercised, the agency must cite the statutory authority permitting the use of other than full
and open competition. To date, PBS has not provided this justification.

The contracting officer indicated that this was not a sole source procurement because most of the contract
costs had been competed or evaluated. Yet, as noted above, only a small portion of the construction costs
were reviewed prior to the contract award. The option for the Construction Phase Services was unpriced
at contract award and PBS negotiated only with the CMc contractor.

Exercising the option for Construction Phase Services under these circumstances violated the competition
requirements of both the Federal Acquisition Regulation and the Competition in Contracting Act. In the
future, PBS must ensure that the CMc with a GMP approach is properly executed and complies with all
applicable laws, regulations, and policies.

Price Reasonableness Was Not Adequately Established

The basis for establishing price reasonableness for the award of the construction phase was entirely
dependent on estimates from the CMc contractor. This approach is inconsistent with acquisition
regulations and agency policy which require that an independent government estimate and/or competition
be the basis for establishing price reasonableness.

The GMP for Construction Phase Services was originally established at $122,034,411 on March 29, 2010,
through a contract modification. However, a price reasonableness determination was not performed at

2
  FAR 52.217-5 states, “Except when it is determined in accordance with FAR 17.206(b) not to be in the
Government’s best interests, the Government will evaluate offers for award purposes by adding the total price for all
options to the total price for the basic requirement. Evaluation of options will not obligate the Government to
exercise the option(s).”
3
  According to the Source Selection Evaluation Board report, PBS evaluated the proposed labor costs, but the
majority of the construction phase costs, including subcontractor costs, were not evaluated.
4
  FAR 2.101 defines a sole source acquisition as “a contract for the purchase of supplies or services that is entered
into or proposed to be entered into by an agency after soliciting and negotiating with only one source.”
                                                           2
that time. Instead, the GMP was based on an estimate prepared by the CMc contractor on March 22,
2010. PBS did not settle on this amount since the contracting officer anticipated it would be decreased
during negotiations prior to exercising the option for Construction Phase Services (we note that the
contract modification establishing the GMP included a requirement that it be renegotiated at or below the
original construction budget of $117,512,494).

However, on July 22, 2010, a contract modification was issued that increased the GMP to $123,500,000 5
and exercised the construction option. While the Pre-Negotiation and Price Negotiation Memorandum for
this modification provide an evaluation of the GMP and a price reasonableness determination, these
assessments were insufficient. The assessments primarily consisted of comparing the contractor’s
original proposal for specific elements of the GMP to the negotiated results and explaining the cost
changes. They were not based on an independent government estimate.

Both the Federal Acquisition Regulation and the General Services Acquisition Manual 6 require that an
independent government estimate be prepared and used to evaluate contractor proposals for construction.
In this case, an estimate was prepared by the Architect-Engineer firm designing the project and was cited
as the independent government estimate. However, PBS policy 7 requires the independent government
estimate be prepared by an estimator that is not affiliated with either the design firm (the
Architect/Engineer) or the CMc contractor.

In addition, the price determination fully relies on the CMc contractor’s cost estimates and its
subcontracting process for establishing price reasonableness. Over $100 million of the GMP is based on
subcontractor costs. According to the evaluation and price reasonableness determination, PBS used the
CMc contractor’s subcontractor cost estimates as part of the independent government estimate. Further,
PBS cites reliance on the future oversight of the contractor’s subcontracting process and verification of
the CMc subcontract costs as part of the price evaluation.

In essence, rather than negotiating the price upfront using price competition or an independent
government estimate, PBS used the contractor’s costs as the basis for establishing contract pricing. As a
result, the pricing for the GMP starts to resemble a cost contract. This approach deviates from the tenets
of a CMc contract which uses the GMP to set a fixed price ceiling and shifts the financial risk to the
contractor.

The March 2010 Obligation of Funding for Construction Phase Services Was Unwarranted and
Led to Improper Contracting

At the time the CMc contract was modified to set the GMP on March 29, 2010, PBS obligated funding to
cover this cost. The obligation was unwarranted and should not have occurred.

The Government Accountability Office defines an obligation as “a definite commitment that creates a
legal liability for the government for the payment of goods and services ordered or received.” 8 On a CMc
contract, this usually occurs when the base contract is awarded and when the construction option is
exercised. However, since only the GMP was established, no liability was created and there was no
legitimate reason to obligate funding. According to the contracting officer, the $122 million was

5
  According to the contracting officer, the GMP increased due to the addition of a photovoltaic canopy roof.
6
  Federal Acquisition Regulation 36.214 and General Services Acquisition Manual 536.203.
7
  P-120 – Project Estimating Requirements for the Public Buildings Service.
8
  GAO-05-734SP A Glossary of Terms Used in the Federal Budget Process dated September 2005.
                                                         3
obligated primarily to help meet the General Service Administration’s (GSA) objective of obligating $4
billion in Recovery Act funds by March 31, 2010.

On July 13, 2010, we notified PBS of this situation. As noted above, on July 22, 2010, PBS issued a
modification that exercised the construction option and increased the GMP to $123,500,000 creating a
definitive commitment for the funding obligation.

The unwarranted obligation of funds led to improper contracting. According to the contractor’s invoice,
prior to the July 22, 2010 contract modification, 9 $326,840 for construction phase work had been
completed 10 even though the construction option had not been exercised and funds for construction had
not been properly obligated. Apparently, the contracting officer gave the contractor a limited notice to
proceed on construction phase work and funded this work using the unwarranted obligation. This was
done informally with no documentation, so the actual scope, cost, and dates for the work could not be
confirmed. In addition, the decision to enter into this work prior to setting the actual GMP reduces the
Government’s negotiating leverage as it guarantees the exercise of the option.

Comprehensive Project Plan Not Updated at Project Initiation

The Green-Wyatt modernization project did not have an updated project management plan in place until
August 2010 despite the fact that major elements of the project plan had changed since the original plan
was developed.

The original project plan for the Green-Wyatt project was developed in 2006. At that time, the initial
redesign of Green-Wyatt was planned with the expectation of using a traditional Design/Bid/Build project
delivery methodology. At approximately 50 percent design completion, PBS chose not to proceed with
the project due to a funding shortage.

When Recovery Act funds became available, the project was re-scoped, and the project delivery
methodology was changed to CMc. However, the 2006 project plan was never revised. On July 13,
2010, we notified PBS that the project management plan had not been updated since 2006. The project
management plan was eventually updated and approved on August 9, 2010.

The project management plan is an integral part of project planning and execution. According to the GSA
Office of the Chief Architect’s June 2009 revision of the “Project Management Guide for the Public
Buildings Service,” project plans present the project goals and objectives and establish the complete
project scope, schedule, budget, and implementation strategy as well as the roles and responsibilities of
the project team. The Office of Inspector General has previously identified the lack of updated or fully
developed project plans in its September 29, 2009, audit memorandum on project plans. In response,
PBS agreed that plans would be required for new construction and major modernizations and that it would
request project managers to prepare the plans.




9
 The invoice is dated June 30, 2010.
10
   According to the Pre-Negotiation and Price Negotiation Memoranda dated September 29, 2010, the cost for these
services is $476,443.
                                                        4
                 Recovery Act Report:
  Edith Green/Wendell Wyatt Modernization Project
Review of PBS’s Major Construction and Modernization
    Projects Funded by the American Recovery and
               Reinvestment Act of 2009
          Audit Number A090172/P/R/R11005

              Management Comments




                        A-1
A-2
                                       Recovery Act Report:
                        Edith Green/Wendell Wyatt Modernization Project
                      Review of PBS’s Major Construction and Modernization
                          Projects Funded by the American Recovery and
                                     Reinvestment Act of 2009
                                Audit Number A090172/P/R/R11005

                          Background, Objectives, Scope, and Methodology


Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the General Services
Administration (GSA) with $5.55 billion for the Federal Buildings Fund. In accordance with the
Recovery Act, the GSA Public Buildings Service (PBS) is to use the funds to convert federal buildings
into High-Performance Green Buildings as well as to construct federal buildings, courthouses, and land
ports of entry. The Recovery Act mandates that $5 billion of the funds were to be obligated by September
30, 2010, and that the remaining funds were to be obligated by September 30, 2011. The GSA Office of
Inspector General is conducting oversight of the projects funded by the Recovery Act.

The initial redesign of the Edith Green/Wendell Wyatt Federal Building began in 2006 with the
expectation of a traditional Design/Bid/Build project delivery method. At approximately 50 percent
design completion, PBS chose not to proceed with the project due to a funding shortage. When Recovery
Act funds became available, the project was re-scoped and designated by PBS to become an economically
and operationally efficient high-performance green building. PBS ultimately awarded a Construction
Manager as Constructor (CMc) contract for the project in December 2009 and set a Guaranteed
Maximum Price in March 2010. In July 2010, the audit team discussed the issues identified in this report
with PBS management and project personnel. PBS subsequently exercised the construction option of the
contract.

Objectives

The objective of the Office of Inspector General’s Recovery Act oversight is to determine if PBS is
planning, awarding, and administering contracts for major construction and modernization projects in
accordance with prescribed criteria and Recovery Act mandates. The work for this report was performed
while evaluating the award for the construction of the Edith Green/Wendell Wyatt modernization project.

Scope

Our audit work for this report was performed between January 2010 and October 2010.

Methodology

To accomplish the objective we conducted fieldwork in the Northwest/Arctic Region, reviewed the
contract file and other pertinent project documents, met with project staff, and reviewed applicable
guidance and regulations.



                                                  B-1
Except as noted below, we conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

The planning for this review is based on the audit plan for oversight of the Recovery Act projects as well
as review guidance being applied to all Recovery Act projects. A separate guide was not prepared for this
project.

As this work was performed under the continuing oversight of all PBS Recovery Act projects,
management controls are currently under assessment. Only those management controls discussed in the
report have been assessed.




                                                   B-2
                                      Recovery Act Report:
                       Edith Green/Wendell Wyatt Modernization Project
                     Review of PBS’s Major Construction and Modernization
                         Projects Funded by the American Recovery and
                                    Reinvestment Act of 2009
                               Audit Number A090172/P/R/R11005

                                      Report Distribution


Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (10P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Special Agent in Charge (JI-10)

Regional Inspector General for Audits (JA-9)

Assistant Inspector General for Investigations (JI)




                                                C-1
